Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  MEDICARE BENEFICIARIES
  PAID NEARLY HALF OF THE
   COSTS FOR OUTPATIENT
    SERVICES AT CRITICAL
     ACCESS HOSPITALS




                    Daniel R. Levinson
                     Inspector General

                      October 2014
                     OEI-05-12-00085
EXECUTIVE SUMMARY: MEDICARE BENEFICIARIES PAID NEARLY HALF OF
THE COSTS FOR OUTPATIENT SERVICES AT CRITICAL ACCESS HOSPITALS
OEI-05-12-00085

WHY WE DID THIS STUDY
The Critical Access Hospital (CAH) certification was created to ensure that rural beneficiaries
would have access to hospital services. Medicare reimburses CAHs at 101 percent of their
“reasonable costs,” rather than at the predetermined rates set by the Outpatient Prospective
Payment System (OPPS).

The system that Medicare uses to calculate outpatient coinsurance amounts for beneficiaries who
receive services at CAHs differs from that used for beneficiaries who receive services at
acute-care hospitals. Beneficiaries who receive services at CAHs pay coinsurance amounts
based on CAH charges, whereas beneficiaries who receive services at acute-care hospitals pay
coinsurance amounts based on OPPS rates. CAH charges are typically higher than the
reasonable costs associated with CAH services or the OPPS rates that acute-care hospitals
receive.

HOW WE DID THIS STUDY
We used 2009 and 2012 claims data to calculate the percentages and amounts of coinsurance that
Medicare beneficiaries paid toward the costs for outpatient services at CAHs. Additionally, we
calculated the percentages and amounts of coinsurance that beneficiaries would have paid at
acute-care hospitals for 10 outpatient services that were frequently provided at CAHs.

WHAT WE FOUND
Because coinsurance amounts were based on charges, Medicare beneficiaries paid nearly half the
costs for outpatient services at CAHs. In 2012, beneficiaries paid approximately $1.5 billion of
the estimated $3.2 billion cost for CAH outpatient services. Additionally, the average percentage
of costs that beneficiaries paid in coinsurance for these services increased 2 percentage points
between 2009 and 2012. Finally, for 10 outpatient services that were frequently provided at
CAHs, beneficiaries paid between 2 and 6 times the amount in coinsurance than they would have
for the same services at acute-care hospitals.

WHAT WE RECOMMEND
Because coinsurance amounts were based on charges, Medicare beneficiaries paid a higher
percentage of the costs in coinsurance for outpatient services received at CAHs than they would
have paid at hospitals under OPPS. Further, the percentage of costs that Medicare beneficiaries
paid in coinsurance for outpatient services at CAHs has increased in recent years. To reduce the
percentage of costs that Medicare beneficiaries pay in coinsurance, we recommend that CMS
seek legislative authority to modify how coinsurance is calculated for outpatient services
received at CAHs. Some ways in which CMS could modify how coinsurance is calculated for
such services include (1) computing coinsurance so that it is based on interim payment rates
rather than charges and (2) processing claims for outpatient services at CAHs as if they were
paid under OPPS for the purpose of calculating an OPPS-equivalent coinsurance. CMS
responded to the report but neither concurred nor nonconcurred with our recommendation.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................5 

Findings........................................................................................................7 

           Because coinsurance amounts were based on charges, Medicare 

           beneficiaries paid nearly half the costs for outpatient services at 

           CAHs................................................................................................7 

           The average percentage of costs that Medicare beneficiaries paid in 

           coinsurance for outpatient services at CAHs increased slightly 

           from 2009 to 2012 .........................................................................8 

           Because coinsurance amounts were based on charges, Medicare 

           beneficiaries paid more in coinsurance for outpatient services at 

           CAHs than they would have paid at acute-care hospitals..............10 

Conclusion and Recommendation .............................................................13 

           Agency Comments and Office of Inspector General Response.....15 

Appendixes ................................................................................................16 

           A: 	Detailed Methodology .............................................................16 

           B: 	Charges, Coinsurance Amounts, and Costs for Outpatient 

               Services Frequently Provided at CAHs in 2009 and 2012 ......18 

           C: Agency Comments ...................................................................19 

Acknowledgments......................................................................................21 

                    OBJECTIVES
                    To determine:
                    1.	 what percentage of costs beneficiaries paid in coinsurance for outpatient
                        services at Critical Access Hospitals (CAHs),
                    2.	 how the percentage of costs that beneficiaries paid in coinsurance for
                        outpatient services at CAHs changed over time, and
                    3.	 how the coinsurance that beneficiaries paid for outpatient services at
                        CAHs compared to the coinsurance that they would have paid for
                        outpatient services at acute-care hospitals.

                    BACKGROUND
                    Critical Access Hospitals
                    The Balanced Budget Act (BBA) of 1997 created the CAH certification to
                    ensure that hospital care would be accessible to beneficiaries in rural
                    communities.1, 2 Small hospitals that meet specific requirements can qualify
                    for the CAH certification and receive favorable Medicare reimbursements.
                    There are more than 1,300 CAHs in the United States. CAHs are located in
                    each of the 50 States except Connecticut, Delaware, Maryland, New Jersey,
                    and Rhode Island. CAHs provided outpatient services to approximately
                    2.4 million beneficiaries in 2012. Medicare and beneficiaries paid
                    approximately $4.3 billion for these services.
                    Medicare Payments to CAHs and Acute-Care Hospitals
                    Medicare pays CAHs under a system different from that for paying most other
                    hospitals. CAHs receive 101 percent of their “reasonable costs” for outpatient
                    services provided.3, 4 Medicare determines these costs using information from
                    CAHs’ cost reports, on which hospitals report their costs and charges for
                    services provided.5 In contrast, Medicare pays for outpatient services at most

                    1
                      BBA, P.L. No. 105-33 § 4201. The BBA amended several sections of the Social Security
                    Act, including sections 1814(l), 1820, 1834(g), and 1861(mm).

                    2
                      Centers for Medicare & Medicaid Services (CMS), State Operations Manual, Pub. No.

                    100-07, ch. 2, § 2254A. Accessed at http://www.cms.gov/Regulations-and-
                    Guidance/Guidance/Manuals/Internet-Only-Manuals-IOMs-Items/CMS1201984.html on 

                    April 4, 2014. 

                    3
                      Social Security Act, § 1834(g), 42 U.S.C. § 1395m(g).
                    4
                      “Reasonable costs” are the direct and indirect costs associated with providing services to
                    Medicare beneficiaries. 42 CFR § 413.9(b)(1).
                    5
                      42 CFR § 413.20(a). “Costs” refer to the costs of providing services, including the costs of
                    staff, buildings, and equipment. “Charges” refer to the amounts charged by the hospitals for
                    those services.



Beneficiaries Paid Nearly Half of the Costs for Outpatient Services at Critical Access Hospitals (OEI-05-12-00085)   1
                    acute-care hospitals using the outpatient prospective payment system (OPPS),
                    which pays predetermined rates for outpatient services.6
                    During the year, Medicare pays CAHs interim payments for services
                    provided. Medicare calculates these interim payments using the previous
                    year’s costs of covered services along with any adjustments it deems
                    necessary. 7 Medicare intends these interim payments to reflect actual costs as
                    closely as possible.
                    After CAHs file their cost reports, Medicare determines the final costs and
                    makes additional payment adjustments.8 For example, if the total of (1) the
                    interim payments that a CAH received from Medicare and (2) the coinsurance
                    CAHs received from beneficiaries is less than 101 percent of the costs of
                    those services, Medicare would make an additional payment to the CAH.
                    However, if the interim payments that a CAH received exceed 101 percent of
                    the costs of those services, Medicare will notify the CAH that it will reduce or
                    suspend the CAH’s interim payments unless the CAH makes repayment
                    arrangements.9
                    For both CAHs and acute-care hospitals, Medicare deducts beneficiary
                    payments (including coinsurance) from the costs of the services and from the
                    OPPS rates, respectively, to determine the amounts it should pay for
                    outpatient services.10
                    Beneficiary Coinsurance Payments to CAHs and Acute-Care
                    Hospitals
                    Although Medicare beneficiaries are responsible for paying coinsurance for
                    most outpatient services regardless of where they are received, the system that
                    Medicare uses to compute coinsurance amounts for services received at CAHs
                    differs from that used for beneficiaries at acute-care hospitals. Beneficiaries
                    who receive outpatient services at CAHs pay 20 percent of the charges
                    submitted by CAHs for those services, as mandated by law.11




                    6
                      Social Security Act, § 1833(t), 42 U.S.C. § 1395l(t). 

                    7
                      42 CFR § 413.64(e). 

                    8
                      42 CFR § 413.64(f).

                    9
                      CMS, Medicare Financial Management Manual, Pub. No. 100-006, ch. 3, § 20.1. Accessed

                    at http://cms.gov/Regulations-and-Guidance/Guidance/Manuals/Internet-Only-Manuals-
                    IOMs-Items/CMS019018.html?DLPage=1&DLSort=0&DLSortDir=ascending on

                    April 17, 2014. 

                    10
                       Social Security Act, § 1833(a), 42 U.S.C. § 1395l(a). 

                    11
                       Social Security Act, § 1866(a)(2)(A), 42 U.S.C. § 1395cc(a)(2)(A). 




Beneficiaries Paid Nearly Half of the Costs for Outpatient Services at Critical Access Hospitals (OEI-05-12-00085)   2
                    In contrast, beneficiaries who receive outpatient services at acute-care
                    hospitals pay coinsurance amounts that are a percentage of the
                    OPPS-specified hospital payment rates.12
                    In 2012, the Medicare Payment Advisory Commission (MedPAC) found that
                    the average rate of coinsurance paid for outpatient services at acute-care
                    hospitals was 22 percent of the OPPS rates.13
                    Not all types of outpatient services require Medicare beneficiaries to pay
                    coinsurance.14 Beneficiaries generally do not pay coinsurance for laboratory
                    services or for certain preventive services.
                    Figure 1 illustrates how Medicare payments and beneficiary coinsurance
                    payments to CAHs are calculated. Figure 2 illustrates how Medicare
                    payments and beneficiary coinsurance payments to acute-care hospitals are
                    calculated.

                    Figure 1: Calculation of Medicare Payments and Beneficiary Coinsurance
                    Payments to CAHs




                                                  The beneficiary
                                                  pays 20 percent of
                                                  the charges on the
                                                  claim in
                                                  coinsurance.




                                                                                                                   Medicare uses the
                                            The CAH submits                                                        data from the
                     A Medicare             a claim to                                                             recently filed cost
                     beneficiary receives   Medicare.                                                              report to calculate
                     outpatient services                                                                           final costs and
                     at a CAH.                          Medicare uses data from
                                                                                                                   make any
                                                        the previous year’s cost
                                                                                                                   necessary
                                                        reports to estimate the              The CAH submits its   payment
                                                        costs associated with the            cost report for the   adjustments.
                                                        submitted charge and                 year.
                                                        makes interim payments
                                                        to the CAH based on
                                                        those estimated costs.
                                                        The interim payment to
                                                        the CAH is the difference
                                                        between the estimated
                                                        cost and the coinsurance
                                                        amount already paid.



              Source: OIG analysis of Medicare payment policies for outpatient services at CAHs, 2014.



                    12
                         Social Security Act, § 1833(t)(3)(B), 42 U.S.C § 1395l(t)(3)(B).
                    13
                       MedPAC, Payment Basics: Outpatient Hospital Services Payment System (revised
                    October 2013). 

                    14
                       Social Security Act, § 1866(a)(2)(A), 42 U.S.C. § 1395cc(a)(2)(A). Social Security Act, 

                    § 1833(a)(1), 42 U.S.C. § 1395l(a)(1).




Beneficiaries Paid Nearly Half of the Costs for Outpatient Services at Critical Access Hospitals (OEI-05-12-00085)                       3
                    Figure 2: Calculation of Medicare Payments and Beneficiary Coinsurance
                    Payments to Acute-Care Hospitals




                                                                     The beneficiary
                                                                     pays a percentage
                                                                     of the OPPS rates
                                                                     for the services on
                                                                     the claim in
                                                                     coinsurance.




                                                           The acute-care
                                                           hospital submits a
                            A Medicare                     claim to Medicare.
                            beneficiary receives                                                          Medicare pays the
                            outpatient services at                                                        difference between
                            an acute-care                                                                 the OPPS rates for
                            hospital.                                                                     the services and the
                                                                                                          coinsurance.




           Source: OIG analysis of Medicare payment policies for outpatient services at acute-care hospitals, 2014.




                    Coinsurance for Medicare beneficiaries who receive outpatient services at
                    acute-care hospitals has not always been determined as a percentage of OPPS.
                    Prior to the creation of OPPS in 2000, coinsurance for outpatient services at
                    acute-care hospitals was based on charges and had reached almost 50 percent
                    of the total Medicare payments for those services. Under OPPS, coinsurance
                    declines each year until it reaches 20 percent of the predetermined OPPS
                    rates.15



                    15
                      65 Fed. Reg. 18434, 18487 (Apr. 7, 2000). For each service, an unadjusted coinsurance
                    amount was calculated by taking 20 percent of the national median charges billed in
                    1996, trended forward to 1999. The unadjusted coinsurance amount can never be less than
                    20 percent of the OPPS payment rate. The unadjusted coinsurance amount remains frozen
                    until it equals 20 percent of the OPPS rate for the service, and then it will be updated annually
                    to remain equal to 20 percent of the OPPS rate. Because the unadjusted coinsurance amounts
                    were calculated from national median charges, in the early years of OPPS they remained a
                    high percentage of the total Medicare payments.



Beneficiaries Paid Nearly Half of the Costs for Outpatient Services at Critical Access Hospitals (OEI-05-12-00085)               4
                    Related Work
                    OIG has a body of work that examines CAH locations and services. In
                    2013, OIG found that nearly two-thirds of CAHs were located near other
                    hospitals.16 OIG also found that Medicare and beneficiaries could realize
                    substantial savings if CMS decertified some of these CAHs and recertified
                    them as acute-care hospitals. OIG also found in 2013 that Medicare
                    beneficiaries who receive services at CAHs primarily received outpatient
                    services.17 Finally, OIG is conducting a nationwide review of “swing bed”
                    services at CAHs.18
                    In 2011, MedPAC released a report that examined coinsurance payments at
                    CAHs in 2008 and 2009.19 In the report, MedPAC proposed several possible
                    modifications to the method used to calculate coinsurance at CAHs.

                    METHODOLOGY
                    Scope
                    We reviewed outpatient claim files to identify the percentage of costs that
                    Medicare beneficiaries paid in coinsurance for outpatient services received at
                    CAHs in 2009 and in 2012.
                    We excluded services for which beneficiaries paid part or all of their
                    deductibles, as the deductible amounts may have reduced the amount of
                    coinsurance paid.20 We also excluded services for which beneficiaries are not
                    required to pay coinsurance (e.g. laboratory services). Finally, we excluded
                    services that were not paid for under traditional Medicare (e.g., services paid
                    under managed care), professional services performed at CAHs, and services
                    for which Medicare did not pay. Because of these exclusions, we reviewed
                    outpatient services for approximately 1.7 million beneficiaries. For a
                    breakdown of the number of services included and excluded from our
                    analysis, see Appendix A.




                    16
                       OIG, Most Critical Access Hospitals Would Not Meet the Location Requirements If
                    Required To Re-Enroll in Medicare, OEI-05-12-00080, August 2013.
                    17
                       OIG, Services Provided at Critical Access Hospitals in 2011, OEI-05-12-00081,
                    December 2013.
                    18
                       A “swing bed” is a bed that is reimbursed for skilled nursing services.
                    19
                       MedPAC, Medicare Copayments for Critical Access Hospital Outpatient Services—

                    2009 Update, December 2011. 

                    20
                       A deductible is the amount that a beneficiary must pay out of pocket before Medicare will 

                    pay for any expenses. In 2012, the deductible for Medicare Part B services (which includes 

                    outpatient services) was $140. 76 Fed. Reg. 67572, 67574 (Nov. 1, 2011). 




Beneficiaries Paid Nearly Half of the Costs for Outpatient Services at Critical Access Hospitals (OEI-05-12-00085)   5
                    Data Sources and Analysis
                    We used CMS’s 2009 and 2012 National Claims History (NCH) outpatient
                    claim files to calculate the average percentages of costs that Medicare
                    beneficiaries paid in coinsurance toward the costs of outpatient services
                    received at CAHs. We also used the Minimum Unadjusted Copayment
                    amount published in CMS’s 2012 January Web Addendum B Outpatient
                    Prospective Payment file to approximate the amounts that beneficiaries would
                    have paid in coinsurance at acute-care hospitals for 10 outpatient services that
                    were frequently provided at CAHs.21
                    For a detailed discussion of our data sources and analysis, see Appendix A.
                    Limitations
                    We used outpatient claims as a proxy for Medicare costs for outpatient
                    services at CAHs. The amounts reported on the claims represent interim
                    payments. Medicare uses data from the previous year’s cost reports along
                    with any other necessary adjustments to estimate its interim payments, which
                    are intended to reflect the current cost of services. Because of Medicare’s
                    process for estimating payments, we believe that the estimated payment
                    amounts reported in the claims are reasonable approximations of the final
                    costs of outpatient services. However, because final reimbursements for
                    services provided at CAHs are computed retrospectively, the actual final costs
                    could be higher or lower.
                    Standards
                    This study was conducted in accordance with the Quality Standards for
                    Inspection and Evaluation issued by the Council of the Inspectors General on
                    Integrity and Efficiency.




                    21
                      The Minimum Unadjusted Copayment is the lowest amount of coinsurance that an
                    acute-care hospital can charge for a service. It is equal to 20 percent of the service’s rate.
                    66 Fed. Reg. 44672, 44696-97 (Aug. 24, 2001).



Beneficiaries Paid Nearly Half of the Costs for Outpatient Services at Critical Access Hospitals (OEI-05-12-00085)   6
                    FINDINGS
                    Because coinsurance amounts were based on charges,
                    Medicare beneficiaries paid nearly half the costs for
                    outpatient services at CAHs
                    Of the estimated $3.2 billion CAHs received for outpatient services provided
                    in 2012, approximately $1.5 billion resulted from Medicare beneficiaries’
                    coinsurance payments (47 percent). Approximately 681,000 beneficiaries
                    who received outpatient services at CAHs paid an average of more than half
                    of the costs in coinsurance, including 146,000 who paid more than 75 percent
                    of the costs in coinsurance. Table 1 shows the distribution of the average
                    percentage of costs in coinsurance paid to CAHs in 2012.

                    Table 1: Distribution of the Average Percentage of
                    Costs That Beneficiaries Paid (as Coinsurance) to
                    CAHs in 2012

                     Average percentage of                   Number of               Percentage of
                     costs                                 beneficiaries             beneficiaries*

                     >75%                                        146,480                       8%

                     >50% and ≤75%                               534,795                      31%

                     >25% and ≤50%                             1,011,344                      58%

                     ≤25%                                          40,969                      2%

                           Total                               1,733,588                     100%

                    Source: OIG analysis of NCH Outpatient Files, 2012.
                    * This column does not sum to 100 percent because of rounding.




                    Beneficiaries paid an average of 47 percent of the costs for outpatient services
                    at CAHs in coinsurance because charges—the basis for CAH coinsurance
                    payments—are typically greater than the costs of the services. A
                    2011 MedPAC report found that CAHs’ average charges for outpatient
                    services were more than double the average costs of the services. This can
                    happen because charges are not required to be tied to costs in any way; CAHs
                    are allowed to set their charges at any rate. Because charges are higher than
                    costs, the amount of coinsurance calculated from charges can constitute a
                    significant proportion of the cost. Figure 3 shows how coinsurance calculated
                    from charges results in coinsurance payments that constitute a high percentage
                    of the costs of the service.




Beneficiaries Paid Nearly Half of the Costs for Outpatient Services at Critical Access Hospitals (OEI-05-12-00085)   7
                    Figure 3: How Coinsurance Calculated From Charges Results in Coinsurance
                    Payments That Are a High Percentage of Costs


                                                                                                               Coinsurance as a
                                                                                                               Percentage of Cost

                                                                                                               Coinsurance………$20
                                                      The beneficiary pays 20
                                                       percent of the charges                                  Cost………………..$43
                                                        on the claim—$20—in
                                                                  coinsurance.     Coinsurance                 Coinsurance as a
                                                                                                               percentage of
                                                                                       $20
                                                                                                               cost………………...47%
                                                       Claim

                                                       $100



                                                 The CAH submits a                                     Cost             Medicare’s
                          A Medicare
                                                 claim to Medicare.                                                  Interim Payment
                          beneficiary receives
                                                 The claim lists $100 in                                $43
                          outpatient services
                                                 charges for the                                                            $23
                          at a CAH.
                                                 services.
                                                                                 Medicare uses data from       Because the beneficiary
                                                                                 the previous year’s cost     has already paid the CAH
                                                                                 reports to estimate that     $20 in coinsurance,
                                                                                 the services on the claim    Medicare pays the CAH the
                                                                                 cost $43.                    remaining $23.




                    Source: OIG analysis of Medicare payment policies for outpatient services at CAHs, 2014.


                    The average percentage of costs that Medicare
                    beneficiaries paid in coinsurance for outpatient services
                    at CAHs increased slightly from 2009 to 2012
                    The average percentage of costs that Medicare beneficiaries paid in
                    coinsurance for outpatient services at CAHs increased from 45 percent in
                    2009 to 47 percent in 2012.
                    The average percentage of costs that beneficiaries paid in coinsurance for
                    outpatient services at CAHs increased because charges for outpatient services
                    at CAHs typically increased faster than costs. Because coinsurance is based
                    on charges, when charges increase, coinsurance also increases. Thus, charges
                    that increase faster than costs result in coinsurance amounts that make up
                    increasingly larger percentages of costs.
                    CAH charges increased faster than costs from 2009 to 2012 for outpatient
                    services frequently provided at CAHs. The average charges for these services
                    increased between 2 and 5 percentage points more than the average costs for
                    these services. For example, between 2009 and 2012, CAHs’ average charges
                    for electrocardiogram tracing increased 4 percentage points more than the
                    average costs; average charges increased by 13 percent, while average costs
                    increased by 9 percent. Chart 1 illustrates the percentage increase in charges
                    and costs for outpatient services frequently provided at CAHs.
                    See Appendix B for coinsurance amounts, costs, and charges for outpatient
                    services frequently provided at CAHs in 2009 and 2012.


Beneficiaries Paid Nearly Half of the Costs for Outpatient Services at Critical Access Hospitals (OEI-05-12-00085)                        8
                     Chart 1: Percentage Increase in Charges and Costs for Outpatient Services Frequently
                     Provided at CAHs in 2009 and 2012
                         30%
                      




                         25%
                                                                                                                     CAH average charge

                         20%
                                                                                                                     CAH average cost
                         15%


                         10%


                           5%


                           0%

                      S 

                     Source: OIG analysis of 2009 and 2012 National Claims History (NCH) outpatient files, 2014. 

                     For descriptions of these 10 services, see Table 5 on page 18. 




                    The percentage of beneficiaries who paid (as coinsurance) an
                    average of more than 50 percent of the costs for outpatient
                    services at CAHs has increased by 9 percentage points
                    In 2009, 30 percent of Medicare beneficiaries (approximately 521,000) paid
                    an average of more than half of the costs for outpatient services at CAHs in
                    coinsurance. In 2012, the figure was 39 percent (nearly 700,000
                    beneficiaries).




Beneficiaries Paid Nearly Half of the Costs for Outpatient Services at Critical Access Hospitals (OEI-05-12-00085)              9
                    Because coinsurance amounts were based on charges,
                    Medicare beneficiaries paid more in coinsurance for
                    outpatient services at CAHs than they would have paid
                    at acute-care hospitals
                    Medicare beneficiaries who received outpatient services at CAHs typically
                    paid more in coinsurance—both in absolute amounts and in percentage of
                    costs—than they would have for the same services at acute-care hospitals.
                    For the 10 frequently provided outpatient services, beneficiaries’ average
                    coinsurance amounts at CAHs were between 2 and 6 times the coinsurance
                    amounts for the same services provided at acute-care hospitals. In the case of
                    electrocardiogram tracing—the most frequently provided service included in
                    this analysis—beneficiaries who received the service at CAHs paid an average
                    coinsurance amount that was more than the entire OPPS rate for the service.
                    The differences in the coinsurance amounts were a result of CAHs’ average
                    charges for these services being more than double the OPPS rate for the same
                    services. Table 2 presents beneficiaries’ coinsurance amounts at CAHs and
                    acute-care hospitals for outpatient services frequently provided at CAHs in
                    2012.




Beneficiaries Paid Nearly Half of the Costs for Outpatient Services at Critical Access Hospitals (OEI-05-12-00085)   10
Table 2: Beneficiaries' Coinsurance Amounts at CAHs and Acute-Care Hospitals in 2012 for
Frequently Provided Outpatient Services

                                                                         Basis for calculating
                                                                                                                   Coinsurance payments*
                                                                            coinsurance

                                                    Number of
                                                                                                                                     Beneficiary
 Service                                         times service
                    Service type                                                               OPPS                                    minimum
 number                                          was provided                                                   Beneficiary
                                                                            CAHs'           payment                                  unadjusted
                                                      at CAHs                                                      average
                                                                          average             rate at                                copayment
                                                                                                               coinsurance
                                                                           charge         acute-care                                  amount at
                                                                                                            amount at CAHs
                                                                                            hospital                                  acute-care
                                                                                                                                     hospitals**

                    Electrocardiogram
 Service1                                               759,686           $164.31             $26.75                    $32.86              $5.35
                    tracing

                    Hydrate IV infusion
 Service 2                                              655,763             $89.66            $24.81                    $17.93              $4.96
                    add-on
                    Therapeutic,
                    prophylactic, or
 Service 3          diagnostic injection;               442,458             $70.12            $34.81                    $14.03              $6.96
                    subcutaneous or
                    intramuscular
                    Therapeutic,
                    prophylactic, or
 Service 4          diagnostic injection;               338,707           $110.45             $34.81                    $22.09              $6.96
                    IV push, new drug
                    add-on
                    Intravenous infusion
 Service 5                                              297,692           $277.77            $126.64                    $55.55             $25.33
                    (initial)
                    Therapeutic,
                    prophylactic, or
 Service 6                                              288,644           $131.31             $34.81                    $26.26              $6.96
                    diagnostic injection;
                    IV push
 Service 7          Cardiac rehab/monitor               238,445           $171.15             $69.61                    $34.23             $13.92

                    Airway inhalation
 Service 8                                              186,575             $84.80            $29.71                    $16.96              $7.72
                    treatment

                    Intravenous infusion
 Service 9                                              180,779             $99.98            $34.81                    $20.00              $6.96
                    (additional)

                    Transthoracic
 Service 10         echocardiogram with                    89,674       $1,540.40            $392.78                   $308.08             $78.56
                    Doppler complete
Source: OIG analysis of 2012 NCH outpatient files, 2014.
* The columns below compare average CAH coinsurance payments to minimum copayment amounts. The coinsurance amounts, 

which are presented in dollars, represent a percentage of the average charges for the services, while the copayment amounts are

the minimum flat amounts that Medicare beneficiaries are required to pay at acute-care hospitals. Beneficiaries pay the minimum 

copayment amount only when 20 percent of the cost of the service is less than the minimum copayment value. 

** CMS 2012 January Web Addendum B file. Coinsurance amounts are adjusted for geographic location and the complexity of the

services provided. 



                      Previous OIG work found similar results. In a report published in 2013, OIG
                      found that Medicare beneficiaries paid an average of $400 more in
                      coinsurance for outpatient services received at some CAHs in 2011 than they




Beneficiaries Paid Nearly Half of the Costs for Outpatient Services at Critical Access Hospitals (OEI-05-12-00085)                   11
                    would have if those CAHs were recertified as acute-care hospitals and paid
                    under OPPS.22
                    Finally, Medicare beneficiaries typically paid a greater percentage of the costs
                    in coinsurance for outpatient services received at CAHs than they would have
                    for the same services at acute-care hospitals. As previously stated,
                    beneficiaries paid an average of 47 percent of costs for outpatient services at
                    CAHs in 2012. In contrast, MedPAC found that beneficiaries’ coinsurance
                    payments for outpatient services at acute-care hospitals paid under OPPS
                    accounted for 22 percent of the OPPS rates in that same year.




                    22
                      OIG, Most Critical Access Hospitals Would Not Meet the Location Requirements If
                    Required To Re-Enroll in Medicare, OEI-05-12-00080, August 2013.



Beneficiaries Paid Nearly Half of the Costs for Outpatient Services at Critical Access Hospitals (OEI-05-12-00085)   12
                    CONCLUSION AND RECOMMENDATION
                    Because coinsurance amounts were based on charges, Medicare beneficiaries
                    paid a higher average percentage of the costs in coinsurance for outpatient
                    services received at CAHs than they would have paid at hospitals under
                    OPPS. Beneficiaries paid an average of 47 percent of the costs for outpatient
                    services received at CAHs, compared to an average of 22 percent of the OPPS
                    rates for outpatient services received at acute-care hospitals in 2012.
                    Further, the percentage of costs that Medicare beneficiaries paid in
                    coinsurance for outpatient services at CAHs increased from 45 percent in
                    2009 to 47 percent in 2012, as charges have typically increased faster than
                    costs.
                    Also because coinsurance amounts were based on charges, beneficiaries paid
                    more in coinsurance for outpatient services provided at CAHs than they would
                    have paid at acute-care hospitals. For the 10 outpatient services most
                    frequently provided at CAHs, CAH beneficiaries paid coinsurance amounts
                    that were 2 to 6 times the OPPS coinsurance rates. For one of these services,
                    the average coinsurance amount that CAH beneficiaries paid was more than
                    the total OPPS rate.
                    With the creation of OPPS, CMS has successfully addressed concerns about
                    coinsurance amounts that were a large percentage of the costs of outpatient
                    services at acute-care hospitals. Prior to OPPS, Medicare beneficiaries who
                    received outpatient services at acute-care hospitals were paying 50 percent of
                    the costs for those services in coinsurance. CMS implemented OPPS, in part,
                    to bring beneficiaries’ coinsurance amounts down to 20 percent of the
                    Medicare reimbursements for outpatient services at acute-care hospitals. To
                    achieve a similar change for beneficiaries receiving outpatient services at
                    CAHs, we recommend that CMS:
                    Seek legislative authority to modify how coinsurance is
                    calculated for outpatient services received at CAHs
                    CMS should draft, and submit to HHS for review, a legislative proposal that
                    would modify how coinsurance is calculated for outpatient services at CAHs.
                    Because the method for calculating coinsurance for outpatient services at
                    CAHs is mandated by law, any change would require legislative authority.
                    CMS could include in the proposal one of several modifications that would
                    change the method for calculating coinsurance from a figure based on charges
                    to a figure that more closely represents costs.
                    Several possible modifications that CMS could use can be found in a
                    2011 report by MedPAC. Medicare could apply to coinsurance calculations
                    the same process currently used to estimate CAHs’ interim payments, so that
                    coinsurance amounts would be based on interim payments rather than on

Beneficiaries Paid Nearly Half of the Costs for Outpatient Services at Critical Access Hospitals (OEI-05-12-00085)   13
                    charges. Alternatively, Medicare could process outpatient claims at CAHs as
                    though they were being paid for under OPPS and charge beneficiaries the
                    OPPS coinsurance rates.
                    Implementing this recommendation would result in increased Medicare
                    payments to CAHs for outpatient services. Medicare pays the difference
                    between the costs of the services and the amount beneficiaries pay in
                    coinsurances and deductibles. Therefore, if beneficiary payments were to
                    decrease, Medicare payments would increase.
                    If CMS wanted to take steps to mitigate the potential increase in Medicare
                    expenditures, it could do so in multiple ways, seeking legislative changes as
                    needed. As it did with OPPS, it could phase in the changes over several years
                    to reduce the immediate burden to Medicare. It could also offset the potential
                    increase in Medicare expenditures by ensuring that only those CAHs that
                    meet all participation requirements continue to receive cost-based
                    reimbursements. In 2013, OIG found that most CAHs would not meet the
                    location requirements if required to re-enroll in Medicare because a
                    significant number of these CAHs were located near hospitals or other CAHs.
                    In response to the 2013 report, CMS agreed to periodically reassess CAHs’
                    compliance with all location-related participation requirements.




Beneficiaries Paid Nearly Half of the Costs for Outpatient Services at Critical Access Hospitals (OEI-05-12-00085)   14
                    AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                    RESPONSE
                    CMS responded to the report but neither concurred nor nonconcurred with our
                    recommendation.
                    We continue to encourage CMS to seek legislative authority to modify how
                    coinsurance is calculated for outpatient services received at CAHs. Because
                    coinsurance for outpatient services is calculated from submitted charges rather
                    than from final costs, beneficiaries who receive outpatient services at CAHs
                    typically pay more—in terms of both the percentage of final costs and total
                    amounts—than beneficiaries who receive outpatient services from hospitals
                    paid under OPPS.
                    Prior to the creation of OPPS, all beneficiaries paid high percentages of the
                    final costs for outpatient services. OPPS reduced coinsurance for outpatient
                    services to 20 percent of the final costs for beneficiaries who received services
                    at hospitals paid under OPPS. A similar change should be made to the way
                    coinsurance is calculated for services at CAHs so that CAH beneficiaries are
                    not subject to coinsurance amounts that are almost 50 percent of the costs. We
                    will routinely follow up with CMS about implementing this recommendation.
                    For the full text of CMS’s comments, see Appendix C.




Beneficiaries Paid Nearly Half of the Costs for Outpatient Services at Critical Access Hospitals (OEI-05-12-00085)   15
                      APPENDIX A
                      Detailed Methodology 

                      Data Sources 

                      2009 and 2012 NCH outpatient files. The NCH outpatient files contain the
                      outpatient claims data submitted by CAHs for Medicare reimbursement.
                      We excluded certain claim lines from our analysis if any of the following
                      were applicable: the beneficiary paid a deductible, the beneficiary did not pay
                      coinsurance, traditional Medicare was not the payer, the claim lines
                      represented professional services, or Medicare did not pay for the service on
                      the claim line. Table 4 shows the number of claim lines that we eliminated
                      from our analysis for each of these reasons in 2009 and 2012.
  Table 4: Number of Claim Lines Excluded From Analysis

                                                                                                                2009                   2012

  Total claim lines                                                                                      53,307,846             58,992,752

  Claim lines for which beneficiaries paid a deductible                                                    1,516,232             1,700,278

  Claim lines for which beneficiaries did not pay coinsurance*                                           28,176,500             31,243,246

  Claim lines for which traditional Medicare was not the payer                                                       0                1,797

  Claim lines that represented professional services                                                       2,565,891             2,971,289

  Claim lines for which Medicare did not pay                                                                         1                    35

  Total claim lines used in analysis                                                                     21,049,222             23,076,107
  Source: OIG analysis of 2009 and 2012 NCH outpatient files, 2014.
  * For both 2009 and 2012, more than 90 percent of the claim lines for which beneficiaries did not pay coinsurance were laboratory services.




                      2012 January Web Addendum B Outpatient Prospective Payment file. CMS’s
                      2012 January Web Addendum B outpatient prospective payment file contains
                      status indicators, costs, and coinsurance amounts for all outpatient services.
                      Data Analysis
                      Average percentage of costs paid in coinsurance. We used the NCH
                      outpatient files to calculate the percentage of the costs that beneficiaries paid
                      in coinsurance for outpatient services received at CAHs in 2009 and 2012.
                      We divided the total coinsurance amount by the total coinsurance amount plus
                      the total Medicare payment amount for each service to determine the
                      percentage of the estimated costs for outpatient services at CAHs that was
                      paid as coinsurance. We then calculated the average percentage of costs in
                      coinsurance that beneficiaries paid to CAHs in each year.




Beneficiaries Paid Nearly Half of the Costs for Outpatient Services at Critical Access Hospitals (OEI-05-12-00085)                              16
                    Frequently provided outpatient services at CAHs. We used the NCH
                    outpatient files to identify frequently provided outpatient services at CAHs in
                    2012. We used the 2012 January Addendum B file to identify outpatient
                    services categorized as significant procedures. We selected the 10 most
                    frequently provided significant procedures to include in our analysis. 23 We
                    then excluded any services that were billed with a modifier to ensure that we
                    were comparing similar services between CAHs and acute-care hospitals.24
                    We calculated the average charges, costs, and coinsurance amounts for these
                    frequently provided outpatient services. To determine the average charge for
                    each service, we summed the charges and divided by the number of times the
                    service was provided. To determine the average cost for each service, we
                    added the coinsurance amounts plus the Medicare payment amounts and
                    divided by the number of times the service was performed. To determine the
                    average coinsurance amount for each service, we summed the coinsurance
                    amounts for each service and divided by the number of times the service was
                    provided.
                    We also analyzed 2009 NCH outpatient data as described above to calculate
                    the average charges, costs, and coinsurance amounts for the same set of
                    10 outpatient services frequently provided at CAHs. We identified these
                    10 services using the 2012 outpatient data.




                    23
                       Significant procedures were identified by selecting services associated with status indicator
                    codes S (Significant Procedure, Not Discounted when Multiple) and T (Significant Procedure,
                    Multiple Reduction Applies).
                    24
                       Modifiers are used to provide additional details about the services provided. Some
                    modifiers affect payments.



Beneficiaries Paid Nearly Half of the Costs for Outpatient Services at Critical Access Hospitals (OEI-05-12-00085)   17
                            APPENDIX B
                            Charges, Coinsurance Amounts, and Costs for Outpatient Services Frequently Provided at CAHs in
                            2009 and 2012
Table 5: Charges, Coinsurance Amounts, and Costs for Outpatient Services Frequently Provided at CAHs in 2009 and 2012
                                                                                                        Beneficiary average
                                                        CAH average charge                           coinsurance amount at                        CAH average cost
 Service                                                                               Percent                        CAHs           Percent                                Percent
                  Services
 number                                                                                change                                        change                                 change
                                                             2009          2012                           2009           2012                      2009              2012


 Service1         Electrocardiogram tracing              $144.80        $164.31            13%          $28.96         $32.86            13%      $62.71         $68.24         9%


 Service 2        Hydrate IV infusion add-on              $85.76         $89.66             5%          $17.15         $17.93             5%      $35.93         $36.84         3%

                  Therapeutic, prophylactic,
                  or diagnostic injection;
 Service 3                                                 $60.54         $70.12           18%          $12.11         $14.03            18%      $27.11         $30.55        15%
                  subcutaneous or
                  intramuscular
                  Therapeutic, prophylactic,
 Service 4        or diagnostic injection;                 $96.87       $110.45            14%          $19.37         $22.09            14%      $40.34         $44.24         9%
                  IV push, new drug add-on

                  Intravenous infusion
 Service 5                                               $221.91        $277.77            25%          $44.38         $55.55            25%      $98.37        $119.22        21%
                  (initial)

                  Therapeutic, prophylactic,
 Service 6        or diagnostic injection;               $114.26        $131.31            14%          $22.85         $26.26            14%      $49.11         $54.42        10%
                  IV push

 Service 7        Cardiac rehab/monitor                  $144.05        $171.15            19%          $28.81         $34.23            18%      $66.70         $76.50        15%

                  Airway inhalation
 Service 8                                                 $71.44         $84.80           19%          $14.29         $16.96            19%      $29.93         $34.86        17%
                  treatment

                  Intravenous infusion
 Service 9                                                 $86.92         $99.98           15%          $17.38         $20.00            15%      $38.17         $43.05        13%
                  (additional)
                  Transthoracic
 Service 10       echocardiogram with                  $1,337.43      $1,540.40            15%         $267.49        $308.08            15%     $578.72        $648.79        12%
                  Doppler complete
Source: OIG analysis of 2009 and 2012 NCH outpatient files, 2014.




                            Beneficiaries Paid Nearly Half of the Costs for Outpatient Services at Critical Access Hospitals (OEI-05-12-00085)                   18
                              APPENDIXC
                              Agency Comments

          ,"'~'"""C<s"<,
      (                  ~     DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Centers for Medicare & Medicaid Services


          ~.~<t"'.r.ca
                         ~                                                                             Administrator
                                                                                                       Washington, DC 20201




                           DATE: 	          AUG Z9 2014

                           TO: 	           Daniel R. Levinson
                                           Inspector General
                                                                /S/
                             FROM: 	       Marilyn Taveuher
                                           Administrator

                              SUBJECT: 	 Office of Inspector General (OIG) Draft Report: Medicare Beneficiaries Paid
                                         Nearly Half of the Costs for Outpatient Services at Critical Access Hospitals
                                         (OEI-05-12-00085)

                             Thank you for the opportunity to review and comment on the above-subject report. OIG 's
                             objective was to determine-( 1) The percentage of costs beneficiaries paid in coinsurance tor
                             outpatient services at Critical Access Hospitals (CAHs); (2) How the percentage of costs
                             beneficiaries paid in coinsurance for outpatient services at CAHs changed over time; and (3)
                             How the coinsurance beneficiaries paid for outpatient services at CAHs compared to the
                             coinsurance beneficiaries would have paid for outpatient services at acute-care hospitals.

                             Medicare reimburses CAHs at 101 percent of their reasonable costs, rather than at the
                             predetermined rates set by the Outpatient Prospective Payment System (OPPS). Medicare
                             calculates outpatient coinsurance amounts differently for beneficiaries who receive services at
                             CAHs than for beneficiaries who receive services at most other hospitals. Beneficiaries who
                             receive services at CAHs pay coinsurance amounts based on CAH charges, consistent with
                             payment based on reasonable cost. Under the OPPS, beneficiary co payment is based on the
                             OPPS payment rate. In the final rule on OPPS payment policies for calendar year 2014, CMS
                             estimated that, in aggregate, beneficiary liability would be 21.7 percent ofOPPS payment.
                             CAH charges are typically higher than the reasonable costs associated with CAH services or the
                             OPPS rates that most hospitals receive.

                             The OIG report relied on 2009 and 2012 claims data to calculate the percentages and amounts of
                             coinsurance that Medicare beneficiaries paid toward the costs for outpatient services at CAHs.
                             OIG also calculated the percentages and amounts of coinsurance that Medicare beneficiaries
                             would have paid at hospitals paid under the OPPS for 10 frequently provided outpatient services
                             at CAHs.

                             Coinsurance based on charges resulted in Medicare beneficiaries paying nearly half the costs for
                             outpatient services at CAHs. In 2012, beneficiaries paid approximately $1.5 billion of the
                             estimated $3.2 billion cost for CAH outpatient services (4 7 percent). Approximately 681,000
                             Medicare beneficiaries who received outpatient services at CAHs paid, on average, more than
                             half of the costs in coinsurance, including 146,000 who paid more than 75 percent of the costs in
                             coinsurance. Additionally, the average percentage of costs that Medicare beneficiaries paid in




Beneficiaries Paid Nearly Half of the Costs for Outpatient Services at Critical Access Hospitals (OEI-05-12-00085)                    19
Beneficiaries Paid Nearly Half of the Costs for Outpatient Services at Critical Access Hospitals (OEI-05-12-00085)   20
                    ACKNOWLEDGMENTS
                    This report was prepared under the direction of Ann Maxwell, Regional
                    Inspector General for Evaluation and Inspections in the Chicago regional
                    office; Thomas Komaniecki, Deputy Regional Inspector General; and
                    Laura Kordish, Deputy Regional Inspector General.
                    Lisa Minich served as the team leader for this study, and Brian Jordan
                    served as the lead analyst. Central office staff who provided support
                    include Clarence Arnold, Heather Barton, and Christine Moritz.




Beneficiaries Paid Nearly Half of the Costs for Outpatient Services at Critical Access Hospitals (OEI-05-12-00085)   21
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
